  Department of Health and Human Servces
          OFFICE OF

     INSPECTOR GENERAL





  EARLY and PERIODIC SCREENING,

DIAGNOSIS, AND TREATMENT (EPSDT) -­

   PERFORMANCE MEASUREMENT





            AUGUST 199 OEI-01-90130

               EXECUTIVE SUMMAR Y

PUROSE
To assess the accuracy of State reporting of Early and Periodic Screening, Diagnosis
and Treatment (EPSDT) seIVces to Medicaid-eligible children.

BACKGROUN
The EPSDT program was established in 1961. The EPSDT is a comprehensive child
health program that provides for initial and periodic examiations and medically
necessary follow-up care. The program objective is to find and treat the problems
discovered by the screening seIVces early, before they become more complex and
costly to treat.



The Omnibus Budget Reconciliation Act of 1989 (OBRA 1989) expanded EPSDT
coverage. Provisions effective April 1 , 1990 mandated establishment of annual
participation goals and reporting. In July 1990 , the Health Care Financing
Admnistration (HCFA) issued instructions to the State agencies that established an
80 percent participation goal by the end of Fiscal Year (FY) 1995. The HCFA also
established annual reportg requiements for the EPSDT program which replaced
quarterly reporting by the States. The fist   report was due April 1 ,   1991 for the six
month period April 1 , 1990 through September 30 ,    1990.


When HCF A undertook implementation of OBRA 1989 , the existing data system was
inadequate to provide comprehensive data on screening. They began a major
initiative to improve the measurement system. Recognizing the need to test the
reporting formats , instructions , and data entry structures , HCF A decided to use the
data from the first report that covered the last six months of FY 1990 to evaluate
these changes. At the end of the first reporting period , HCFA formed a Work Group
to analyze the reporting process. Based on this evaluation , this Work Group, whose
efforts paralleled our own , is now considerig ways to improve the performance
measurig system.
METHODOWGY
We obtained HCFA' s instructions to States for reporting screening activities and
participation rates. We randomly selected nie States for review, three each from the
lower , middle , and higher participation levels. We obtained copies of these States
                              1990 to September 30, 1990. We evaluated the
reports for the period April 1 ,
methods prescribed for calculating screenig and participation ratios and assessed how
well the sample States complied with instructions.
FIINGS
Th   screening and partpant rati used to mee   States ' perormnce in the EPSDT
program are esentill   inccuate.

Some States ' EPSDT reportg is inonstent wih cuent HCF A intrtins.

RECOMMATIONS
Th   HCFA shoul moif the metho by whih it meases screeng and partpatin
       tht
rates so    thco"ectly refct States ' progres in meetig statury goals.

Th   HCFA shoul ennce moniorig proedes to         ase the accuacy of States
reportg.
As noted previously, a HCFA Work Group is evaluating the EPSDT reporting system.
We hope that the fidings and recommendations in this report will prove useful to the
Work Group.

AGENCY COMMNT

The HCF A concurs with recommendations in the report , suggesting mior editorial
changes. We have reviewed the report and made applicable modications. The full
text of HCF A' s comments are included in APPENDIX E of this report.
                         INTRODUCTION

PUROSE
To assess the accuracy of State reporting of Early and Periodic Screening, Diagnosis
and Treatment (EPSDT) servces to Medicaid-eligible children.

BACKGROUN
RECENT PROGRA AMENDMENT

Medicaid' s EPSDT program , established in the 1967 amendments to the Social
Security Act , is a comprehensive child health program that provides for initial and
periodic examinations and medically necessary follow-up care. The program
                                                                               objective
is to fid and treat the problems discovered by the screening seIVces early, before
they become more complex and costly to treat.

The Omnibus Budget Reconciliation Act of 1989 (OBRA 1989) expanded EPSDT
health coverage for most Medicaid-eligible children under age 21. Effective Apri 1
1990 , Medicaid programs must cover children through age five in famiies with
income at or below 133 percent of the Federal Poverty Level (FPL) as established by
the Department of Health and Human Servces (HHS). States that extended
Medicaid coverage to all pregnant women and inants with incomes up to 185 percent
of the FPL, prior to passage of OBRA 1989 , must maintain that coverage. Also under
OBRA 1990 , States must phase in coverage of children under age 19 born after
September 30 , 1983 , whose family income does not exceed 100 percent of the FPL.

 The OBRA 1989 amendments made changes to the Social Security Act.         The following
 is now the structure of the EPSDT program.

 SERVIQ3: Secton 1905(r)
        Screenig servces  which are provided at intervals which meet reasonable
        standards of medical and dental practice , as determined by the State after
        consultation with recognized medical and dental organizations involved in child
        health care and , at such other intervals indicated as medically necessary to
        determine theexistence of certain physical or mental illnesses or conditions.
        These seIVces shall at a minimum include the followig:

               - a comprehensive health and developmental history (including
                 assessment of both physical and mental health development);

               - a comprehensive unclothed physical examiation;

               - appropriate imunizations accordig to age and health history;
            - laboratory tests (including lead blood level assessment appropriate for
                age and risk factors); and

            - health education (including anticipatory gudance).

     Vision and hearg servces which are provided at intervals that meet
     reasonable standards of medical practice , as determined by the State after
     consultation with recognized medical organizations involved in child health care
     and at such other intervals as medically necessary to determine the existence of
     a suspected ilness or condition. Vision servces include , at a minimum:


            - diagnosis and treatment for defects in vision, including eyeglasses.

     Hearig seIVces include, at a minimum:
            - diagnosis and treatment for defects in hearig, including hearig aids.

     Dental servces which are provided at intervals that meet reasonable standards
     of dental practice ,   as determined by the State after consultation with recognized
     dental organizations involved in child health care , and at such other intervals as
     medicaly necessary to determine the existence of a suspected ilness or
     condition. Dental servces include ,     at a minium:
            - relief of pain and infections , restoration of teeth , and maintenance of
              dental health.

     The States must allow participation by providers who wish to furnsh      only one
     (or more) but not all diagnostic and treatment servces.

     The Secretary shall not later than July 1 , 1990, and every 12 months thereafter
     develop and set annual participation goals for each State for participation of
     individuals who are covered under the State plan under this title in EPSDT
     servces.

     The States must reimburse for diagnostic servces , treatment , and other
     measures described in section 1905(a) of the Act whether or not they are in the
     States ' Medicaid plan.

REPORTIG: Secton 190(a)(43)
     The State plan for medical assistance must provide for reporting to the
     Secretary (in a uniform form and manner established by the Secretary, by age
     group and by basis of eligibilty for medical assistance , and by no later than
       April 1 after the end of each fiscal year, beginning with Fiscal Year (FY) 1990)
       the following information relating to EPSDT seIVces provided under the plan
       during each fiscal year:

              (1)	   the number of children provided chid health screening servces;
              (2)	   the number of children referred for corrective treatment (the
                     need for which is disclosed by such child health screening
                     servces );
              (3)	   the number of children receivig dental servces; and
              (4)	   the State    s results in attaining the participation goals set for the
                     State under section 1905(r) of the Act.

EPSDT REPORTIG FORM

The Health Care Financing Adminstration (HCF A) reporting instructions issued in
July 1990 require each State to submit an annual report on EPSDT servces provided
to children durig the previous Federal fiscal year. The Anual EPSDT Participation
Report , form HCFA- 416, (Appendix A), which replaced the quarterly Form HCFA­
420, provides EPSDT participation information by age group and by basis of eligibilty
(i.e. , categorically-needy (CN) or medically-needy (MN)). Included in the report are:
1) number eligible for EPSDT , 2) total number of eligibles enrolled in continuing care
arrangements , 3) number of eligibles receivig screening seIVces , 4) total number of
eligibles provided child health screening supeIVsion , 5) participant ratio , 6) total
number of screening examinations , 7) screening ratio , 8) number of eligibles referred
for corrective treatment , 9) number of eligibles receivig vision seIVces , 10) number of
eligibles receivig preventive dental seIVces , and 11) number of eligibles receiving
hearing seIVces.


Enrollees in continuing care arrangements are identified separately in the report.
Continuig care providers agree to provide continuous and comprehensive child health
seIVces for EPSDT enrollees.

The participant ratio (Line 5 of the form HCFA-416) is one measure of States
progress in reachig their participation goals. The annual participant ratio is the
unduplicated count of chidren provided health screening supervsion divided by the
number of EPSDT -eligible children. The number of children provided health
screening supervsion is the sum of those receiving screening servces and those
enrolled in continuous care arrangements.

The screening ratio (Line 7) is a second measure of participation. Following the
instruction contained on the form , this ratio is determined by dividing the number of
screening seIVces by the number of children eligible for EPSDT.

When HCFA undertook implementation of OBRA 1989, the existing data system was
inadequate to provide comprehensive data on screening. They began a major
initiative to improve the measurement system. The HCF A recognized the need to test
the reporting formats , instructions , and data entry structures. They decided to use the
preliminary data from the first report that covered the last six months of FY 1990 to
evaluate these changes. At the end of the first reporting period , HCF A formed a
Work Group to analyze the reporting process. Based on this evaluation , this Work
Group, whose efforts paralleled our own , is now considering ways to improve the
performance measurig system.

ANNUAL PARTICIPATION GOAL

With instructions also issued in July 1990, the HHS set a yearly participation goal for
each State , by the end of FY 1995 , to screen at least 80 percent of EPSDT -eligible
children and to provide at least 80 percent of screenings recommended for those
children (Appendix B). The individual States ' FY 1989 proxy participation ratios
became their baselines for interi goals for FY 1991 to FY 1995.

METHODOWGY
We obtained HCF A' s instructions to States for reporting screening activities and
participation rates. We used HCFA' s compilation of FY 1989 EPSDT participation
rates by State to select the sample of nie States (Appendix B). We randomly
selected nine States for review, three each from the lower (0 - 33 percent),
middle (34 - 66 percent), and higher (67 - 100 percent) participation levels.

We obtained copies of these States ' reports for the period April 1 , 1990 to September
  , 1990. We evaluated the methods prescribed for calculating screening and
participation ratios and assessed how well the sample States complied with
instructions.

Our review was conducted in accordance with the 
  Inter Standards for Insections
issued by the President's Council on Integrity and Effciency.
                                 FINDINGS

 TI SCRENG AN PARTICIAN RATIOS USED TO MEUR STATE'
 PERORMCE IN TI EPSDT PROGRA AR                           ESENY
 INACCTE.
The numbers and rates of chidren paricipating in the EPSDT program , as reported
on the form HCFA- 416, are open to question , as are the ratios of screens those
chidren receive. The form itself, the instructions , and the States ' application of them
lead to figues which are at best unreliable and at worst lead to inated screening and
participant ratios. 

Th   screeng rati miates    th States ' screening   perormnce.
The " Guidelies   for Health SupeIVsion"   of the American Academy of Pediatrics
(AA) establishes an expected annual number of screenig       seIVces. The   guidelines
are divided into four age groups:
              Under age one: five screens withi the year
              Ages one through five: seven screens with five years
              Ages six though foureen: five screens withi nie years , and
              Ages fieen through twenty: three screens within six years.

States are not requied to use the AA periodicity schedule. Rather, a State may
develop its own periodicity schedule in consultation with recogned medical and
dental organitions involved   in chid health care.    We wi use the AA standard
however, to ilustrate the problems that arise if the screenig ratio does not take into
account the expected number of screens per year for each age group.

The method used to calculate the screenig ratio on the form HCFA- 416 neglects to
take expected screens into account as HCF A intended by their manual instrction.
The HCF A State Medicaid Manual , Part 5 , Section 5360, descn"bes two methods to
calculate the screening ratio of chidren receivig EPSDT servces. One method is the
ratio of screenig seIVces to individuals eligible for EPSDT durg the period (Part 5
Sectiori 5360C.1. See also Section 5320. 2D7 and Part 2, Section 2700.4). The second
method is the ratio of screening servces to the number of EPSDT-eligible chidren
reported for each age group multiplied by the number of screening servces expected
for each age group member (Par 5 , Section 5360C.5). Both methods of calculation
use the same data but have different results.

The form HCFA- 416 uses the fist calculation method to determne the screening ratio
as descn"bed in Part 2, Section 2700.4 of the State Medicaid Manual. This method
misstates the actual screening ratio since the unduplicated count does not indicate how
many scheduled screens a chid should receive , nor does it indicate for what length of
tie chidren are Medicaid eligible and thus able to receive EPSDT screening seIVces
 under the established screening schedule. Since the ratio is calculated using the
 number of screens as the numerator, and the number of eligible children as the
 denominator, ratios can easily exceed 100 percent. Using this method necessitates
 additional adjustments to approximate the actual screenig ratios. It also creates
 confusion among policyakers as to States ' actual performance in meeting EPSDT
 goals (Appendi C).

 Ths problem can best be demonstrated by focusing on State reporting of screenings
for children under one year of age , where the number of AA recommended
screenigs in one year (five) is highest. In our sample , four States reported screening
ratios greater than 100 percent for chidren under one year of age. As an example
one State reported a screening ratio of 164 percent for children under one year of
age. If the screenig ratio is adjusted to include the total number of screens
recommended for this age group (five), assumig that each EPSDT-eligible should
receive all five screens , the resultant ratio is reduced to 33 percent for this State.

The followig chart compares the screening ratio for children under age one reported
by the sample States versus the adjusted screenig ratio as calculated by our offce.
The adjusted screenig ratio results from factoring the expected number of screens for
children under age one (i. , five) into the denominator of the ratio.


                         REPORTED VS.        USTED SCREEN I NGS

                               Ch i I d en Unde Age One

                       Per-cent age
               200"' _.mm..........m.m..m.m...mmm...mm......m.mm.......mm..... .m.mm....mmm".........m"'.m.m"'..mm.....no



                       '16"1"


               150%             -"".n_n__._un............-.---......---.......-.----....---nO"'h_____........--...........---------........---u......------......_----.....­





               100%




               50"'




                 0",



                                                             States ' Screen i ng Rat i 0
                                                               RQport.tid                                         AdJ us't9d




Reportd figues from th HCFA-416s as provi                          by th States
Overall , the States in our sample reported a screenig ratio of 94 percent for children
under age one. However, if the calculation included the total goal as the number of
scheduled screens due for children under age one, the overall screening ratio would be
19 percent.



Even this adjustment falls short in correctly stating the screening ratio as the number
of eligible children who received all the screens they were scheduled to receive. This
adjustment , like both formulas for the screenig ratio listed in the Medicaid manual
fails to properly account for children who are eligible for only part of the year.
such cases , error is introduced in the opposite direction , understating the true
screening ratio as defied above. Using our example       of children under age one , a
child born late in the reporting year may be scheduled to receive only one or two
screens , rather than five , yet the screenig ratio does not include this factor in its
calculation. The end result is that the current method of reporting makes it difficult
not impossible to ascertain the number of children who are receivig:

               all scheduled screenings

               some of their scheduled screenings , or

               none of the scheduled screenings.


Similar problems occur in the calculation of screenig ratios in chidren of all ages.
The amount of distortion in the measurement varies by age group because of
differences in the number of screens scheduled for each.

Th partpant ratis inlu chilen in contg care a"angemts                 who ma not
receig all approprite screens.
The form HCFA- 416 defines the participant ratio as the chidren receiving "health
screenig supeIVsion " divided by all eligible children. The number of children
receivig screenig supeIVsion is defined as the number of eligibles enrolled in
continuig care arrangements (Line 2 of the form HCF A- 416) and the number of
eligibles receivig screening servces (Line 3 of the form HCFA- 416).

The HCF A defies     continuing care arrangements as those with EPSDT providers that
furnish continuous care and monitoring. There are a number of arrangements
including those that allow a choice of doctors. These may include pediatricians , other
practicing physicians , Health Maintenance Organizations , and community health
centers. The HCF A allows States to count all enrollees in continuing care
arrangements as havig been screened as long as the State has a monitoring process in
place. Section 5240 states that the State Medicaid agency "is deemed to have met
EPSDT requirements for participants enrolled with a continuing care provider.

Three States in our sample had continuing care arrangements. One of the States
counted in their report only the screenings specifcally documented as having been
provided to participants in continuing care arrangements. That State s report shows
less than one- third of the enrollees received a screening for the six-month period of
Apri 1 , 1990 through September 30,     1990. The other two States counted the
continuig care enrollees as participants in EPSDT screening, although they could not
verify that all children enrolled with continuing care providers received a screening
examination during the period.

SOME STATE' EPSDT REPORTIG IS INCONSISTE                         WI CUNT
HCFA INSlRUCTONS.


The form HCFA- 416 instruction provides for unform collection of EPSDT
participation and screening data. However, the wide range of reporting differences by
the sampled States suggests widespread reportg problems , in addition to those
discussed above. The number of errors found in State reporting can be attnlmted
both to the fact that States were using the form for the fist time and that HCF A
needed to refie their manual instructions on reporting.
Most of the form HCFA- 416s      we reviewed had errors.   Several sample States
submitted reports containing incorrect data and miscalculations of the data. Also , one
State merely estimated the number of hearing and vision seIVces for inclusion in the
report. Two States submitted a revised form HCFA-416 after they discovered
problems with the intial report submitted to HCF A One State determined that the
number of vision and hearing servces was incorrectly counted on the initial report.
The other State revised the number of individuals eligible for EPSDT and the
participant ratio initially reported.

In some instances , we also found that States did not follow RCF A Manuafinstructions
for the form HCFA- 416. For example , one State reported on the form HCFA- 416
only those who actually enrolled in the EPSDT program as EPSDT -eligible. Another
State did not use the format of the form HCFA-416. As a result, the participation
ratio and the screening ratio were not reported. Another State used a date different
from the instruction to determne the eligibilty age of the children reported on the
form HCFA- 416. Also , four States included emergency and treatment servces along
with the preventive dental care.

States vary on the manner and method of counting screens. For example , in the
reported participation ratio for the last six months of FY 1990 (Appendix D), one
State did not count well-child visits while other States counted these servces as
EPSDT screenings. Some States count claims while others count procedure codes
toward EPSDT vision and hearing seIVces. Some States use only an EPSDT claim
form to count screenings.

One State respondent told us that the guidelines on the report form were " confusing
when compared to the instructions contained in Part 2, Section 2700.4. Ths confusion
led the State to report a percentage not in line with the gudelines on the form, or
instruction in the HCF A Manual. These inconsistencies resulted in inaccurate counts
of the screens provided and the number of children receiving EPSDT seIVces.
                         (%)              (%)        (%)     (%)      (%)





                          APPENDIX 

                         EPSDT SCRENG RATIO (%)
                          FOR EUGmLE CHREN
                           Apri 1 ,   199 - Sept. 30, 199


                     ALL
                  ELIGIBLE             UNDER         1-5    6 - 14   15 - 20
    SAMPLE        CHILDREN              YEAR       YEARS    YEARS    YEARS
    STATES
                                          164




                                          108


                                          126
                                          108



Source: Form HCFA- 416




                                        C - 1

                     (%)                (%)        (%)       (%)      (%)





                         APPENDIX D

                     EPSDT PARTICIPAN RATIO (%)

                       FOR EUGmlE             CHRE

                           Apri 1 ,   199 - Sept. 30, 199


                    ALL
                 ELIGIBLE         UNDER            1 - 5    6 - 14   15 - 20
   SAMLE         CHILDREN             YEAR        YEARS     YEARS    YEARS
    STATES




Source: Form HCFA- 416




                                         D - 1

          APPENDIX E

HETH CAR FIANCING ADMISTRTION'S COMMNT





                 E - 1

                                         &.




                                                                                   Health Care
             DEPARTMENT OF HEALTH             HUMAN SERVICES                       Financing Administration

                      5 &1
".""1a
                                                                                   Memorandum
  Date
             Wi1

  From       Acting Admstrator


             OIG Draf Repon: "EPSDT Performance Measurement " (OEI- 07- 90130)
  Subject

             Inpector General

             Offce of the Secretary


                   We reviewed the subject draf repon in which OIG assesses the accuracy of
            State reponing of Ealy and Periodic Screenig, Diagnosis and Treatment (EPSDT)
            servces for Medicad-eligible chidren.       OIG focused its review on EPSDT program
            expansions , anual   paricipation goals ,   and reponing fuctions mandated by the
            Omnibus Budget Reconcilation Act of 1989.

                    OIG found that the screenig and paricipant ratios used to measure States

            performance in the EPSDT program were inaccurate. Alo, OIG found that some

            States ' EPSDT reponing was inconsistent with current Health Cae Financig

            Admistration (HCF A) instructions. To address these problems, OIG recommends

            that HCFA: (1) modif the methods by which it measures screenig and parcipation

            rates to reflect States ' progress in meeting statutory goals correctly; and,

            (2) enhance monitorig procedures to ensure the accuracy of States ' reportg. OIG
            acknowledges that a HCF A Work Group is aleady performg an independent
            evaluation of the EPSDT reponing system, where these recommendations wi be
            implemented.

                   We are pleased that OIG used HCFA' s comments made on an earlier workig
            draft of the above-captioned report in the version now released for our review. Our
            curent comments , lited to brief techncal points , are attached for your
            consideration. We concur with this report and its recommendations subject to the
            incorporation of these techncal comments in the fial report.

                    Than you for the opportunity to review and comment" on this draft     report.
            Please advise whether you agree with our suggested techncal revisions    to the   report
            at your earliest convenience.


            Attachment




                                                           E - 2

         , "




                   Comments of the Health Care Financing Administration (
                    on the DIG Draft Report: " EPSDT Performance Measurement
                                               07- 90- 00PO)


 Recommendation

That HCFA should modify the methods by which it measures screenig and participation
rates so that they correctly reflect States ' progress in meeting statutory goal.


HCFA Response

HCF A concurs with this recommendation. However , we suggest the text of the last
paragraph followig this recommendation (page 9) be amended to read as follows:

          Chidren enrolled in continuing care arrangements are counted as havig
          received the appropriate number of screens accordig to the screenig
          schedules. We suggest that HCF A require States to document that all
          eligibles reported as havig received Early and Periodic Screenig,
          Diagnosis and Treatment (EPSDT) screenings , including continuing care
          enrollees , actually receive such servces.

Recommendation 2


That HCF A enhance monitoring procedures to ensure the accuracy of States ' reporting.

HCFA Response

HCFA concurs with this recommendation. OIG acknowledges that a HCFA Work
Group is already evaluating the EPSDT reporting system. Ths evaluation seeks to
ensure that documentation of EPSDT participation and screenig servces is accurate
uniform , and useful to decision makers in their assessments of the servces provided to
eligible chidren.

Technical Comments

Page i         Background" section , first paragraph. We suggest this paragraph be amended to
read:

         The EPSDT program was established in 1967. EPSDT is a comprehensive
         child health program that provides for initial and periodic examiations and
         medical1y necessary fol1ow-up care. The program objective is to fid and
         treat the problems discovered by the screening servces early, before they
         become more complex and costly to treat.




                                                    E-3
         ,, ""




Page 2


Page 1  Recent Program Amendments " section ,         fist paragraph. We suggest   thi
paragraph be amended to read:

         Medicaid' s EPSDT program, established in the 1967 amendments to the
         Social Security Act, is a comprehensive chid health program that provdes
         for intial and periodic examations and medicay necessar follow-up
         cae. The program objective is to fid and treat the problems dicovered
         by the screenig servces early, before they become more complex and
         costly to treat.



Page 2, " Vision and Hearg Servces " section ,      second paragraph. We suggest    thi
paragraph be amended to read:

         Hearig Servces include , at a mium:
                        diagnosis and treatment for defects in hearg, including hearg
                        aids.

Page 2       Dental SeIVces "   section, first paragraph. We suggest this paragraph be
amended to read:

         Dental Servces which are provided at intervals that meet reasonable
         standards of dental practice ,
                                  as determed by the State afer consultation
         with recogned dental organitions involved in chid health cae , and at
         such other intervals as medically necessar to determe the exitence of a
         suspected illess or condition. Dental servces include     , at a mium:

                        relief of pai and infections , restoration of teeth, and
                        maintenance of dental health.

Page 3    EPSDT Reporting Form " section, fist paragraph. We suggest the fourh            item
the list of inclusions to the report given in the thid sentence of this paragraph be
amended to- read:

                         total number of eligibles provided chid health screenig
                         supervsion.




                                                    E - 4

